HHS/OIG, Audit - "Payments for Outpatient Hospital, Laboratory, and
Radiology Services Made on Behalf of Beneficiaries in Skilled Nursing Facility
Stays Covered Under Medicare Part A," (A-01-06-00503)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Payments
for Outpatient Hospital, Laboratory, and Radiology Services Made on Behalf of
Beneficiaries in Skilled Nursing Facility Stays Covered Under Medicare Part A," (A-01-06-00503)
January 30, 2008
Complete
Text of Report is available in PDF format (722 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For calendar years (CY) 2001 and 2002, Medicare Part B made
a total of $106.9 million in potential overpayments to suppliers of outpatient
hospital, laboratory, and radiology services on behalf of beneficiaries in Part
A-covered skilled nursing facility stays.  These potential overpayments occurred
because CMS did not have Common Working File (CWF) edits in place during most of this
period.  For CY 2003, when the edits were fully implemented, potential
overpayments were reduced to $22.7 million.  We estimated that the fiscal
intermediaries and carriers had not recovered $17.9 million of these potential
overpayments.
We recommended that CMS (1) direct the fiscal intermediaries and carriers to
review the $106.9 million in potential overpayments for CYs 2001 and 2002 and
make appropriate recoveries, (2) direct the fiscal intermediaries and carriers
to initiate recovery of the estimated $17.9 million in unrecovered overpayments
for CY 2003, (3) continue to test and refine the CWF edits
to ensure that they properly identify claims subject to consolidated billing,
and (4) ensure that all fiscal intermediaries and carriers have established
proper controls to recover overpayments that the CWF edits identify.  CMS agreed
with the recommendations.